             OFFICE OF INSPECTOR GENERAL


                    FISCAL YEAR 2012 EVALUATION OF

                        NEA’S COMPLIANCE WITH THE

                   FEDERAL INFORMATION SECURITY

                            MANAGEMENT ACT OF 2002

                                     REPORT NO. R-13-01


                                         December 17, 2012




                                    REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on the National
Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly available with the
approval of the NEA Office of Inspector General. Information contained in this report may be confidential. The
restrictions of 18 USC 1905 should be considered before this information is released to the public. Furthermore,
information contained in this report should not be used for purposes other than those intended without prior
consultation with the NEA Office of Inspector General regarding its applicability.
                               INTRODUCTION

The Federal Information Security Management Act of 2002 requires an annual evaluation
by the Office of Inspector General on its agency’s information security programs and
practices. This report presents the results of our evaluation of National Endowment for
the Arts’ (NEA) information security program and practices for protecting its information
technology infrastructure.


                                 BACKGROUND
The Federal Information Security Management Act (FISMA) of 2002 was signed into law
on December 17, 2002. It replaced the Government Information Security Reform Act
(GISRA), which expired in November 2002. The Act requires each federal agency to
develop, document, and implement an agency-wide information security program to
provide information security over the operations and assets of the agency. This includes:

   •   Periodic risk assessments;
   •   Policies and procedures that are based on risk assessments;
   •   Subordinate plans for providing adequate information security for networks,
       facilities, information systems, or groups of information systems, as appropriate;
   •   Security awareness training to inform employees (including contractors) of the
       security risks associated with their activities and their responsibilities to comply
       with those agency policies and procedures designed to reduce those risks;
   •   Periodic testing and evaluation of the effectiveness of information security
       policies;
   •   A process for planning, implementing, evaluating, and documenting remedial
       action to address any deficiencies in the information security policies, procedures,
       and practices, of the agency;
   •   Procedures for detecting, reporting, and responding to security incidents; and
   •   Plans and procedures to ensure continuity of operations of the agency’s
       information systems.

Office of Management and Budget (OMB) Memorandum M-12-20, dated September 27,
2012, entitled FY[Fiscal Year] 2012 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management, updates instructions to
Senior Agency Officials for Privacy, Chief Information Officers and Inspectors General
for reporting their 2012 information to OMB.

The National Institute of Standards and Technology (NIST), which has the responsibility
for developing technical standards and related guidance, has issued numerous
publications including NIST Publication 800-12 An Introduction to Computer Security:
The NIST Handbook. This publication explains important concepts, cost considerations,
and interrelationships of security controls as well as the benefits of such controls. NIST
                                            2
also has published a Guide for Developing Security Plans for Information Technology
Systems; Special Publication 800-37, Guide for the Security Certification and
Accreditation of Federal Information Systems; Special Publication 800-53,
Recommended Security Controls for Federal Information Systems; and FIPS PUB 199,
Standards for Security Categorization of Federal Information and Information Systems.
In addition, guidance is found in the Government Accountability Office publication,
Federal Information System Controls Audit Manual.

NEA’s Office of Information and Technology Management (ITM) maintains and
operates two of the agency’s three core systems on a local area network). These are the
Grants Management System, which contains information on grant applications and the
Automated Panel Bank System, which contains information on panelists who review
grant applications. ITM also operates support systems for internet and intranet services.

NEA has contracted with the Department of Transportation (DOT) Enterprise Service
Center to host its Financial Management System through DOT’s Delphi Financial
Management System and the U.S. Department of Agriculture National Finance Center
for payroll services. NEA has also contracted with other providers for email, grant
application process and its personal identity verification(PIV) program.
The Chief Information Officer (CIO) is responsible for developing policies and
procedures to ensure that security is provided over all NEA’s networks.

                         OBJECTIVE AND SCOPE
The objective of the evaluation was to determine the adequacy of NEA’s information
technology (IT) security program and practices. This included a review of NEA’s IT
security policies and procedures and privacy management program. It also included
interviews with responsible agency officials managing the IT systems and tests on the
effectiveness of security controls.


         PRIOR EVALUATION AND OTHER REPORTS
We reviewed prior evaluation reports on NEA's FISMA compliance, information
technology security program and any follow-up documentation to determine the status of
prior recommendations. Details are presented below:

Fiscal Year 2011 Evaluation of NEA’s Compliance with the Federal Information
Security Act of 2002 (Report No. R-12-01) dated November 15, 2011.

NEA has implemented corrective actions for eight of the eleven recommendations. NEA
is in the process of implementing corrective actions to address the remaining three
recommendations in the report.

       1.      Implement corrective actions for recommendations in the Risk Assessment
               Reported issued September 23, 2011 by EmeSec.

                                             3
        2.     Develop and implement written policies and procedures to ensure that it
               establishes an Information System Contingency Plan in compliance with
               NIST SP 800-34, Revision 1.
        3.     Establish and maintain a security capital planning and investment control
               process program for information security.

Review of NEA’s Control Over Computer-Related Equipment, Report No. R-11-02,
dated January 25, 2011

The review of NEA's control over computer-related equipment was to determine whether
NEA was processing and reporting computer security incidents in accordance with its
policies and federal guidance. The report contained eleven recommendations from the
OIG, all of which NEA has implemented corrective actions.

Risk Assessment Report conducted by EmeSec Information Assurance, dated
September 23, 2011

NEA contracted with EmeSec Information Assurance to review and assess the security
architecture supporting NEA’s enterprise network to meet certification and accreditation.
The assessment included reviewing and examining documentation including policies,
procedures and plans for compliance with FISMA requirements, OMB policies and
applicable NIST guidelines. EmeSec also tested security controls by conducting specific
vulnerability assessment and penetration testing on the system network and applications
and NEA’s compliance with Federal Desktop Core Configuration. EmeSec stated in its
report that "implementing a consistently improving Security Program is a two to five year
process." NEA is in the process of implementing corrective actions to address the
recommendations in the report.

As part of our evaluation, we also obtained technical assistance from the International
Trade Commission, Office of Inspector General (ITC OIG). An ITC OIG staff
member with technical expertise was assigned to conduct a high-level, independent
review of NEA’s computer information security program. Specifically, the staff
member performed penetration and patch testing and will provide a report of the
results under separate cover to the NEA OIG.

                          EVALUATION RESULTS
In March 2012, the Department of Homeland Security (DHS) issued a checklist for use
by Offices of Inspectors General to assess the level of performance achieved by agencies
in specific program areas during the FY 2012 FISMA evaluation period. The specific
program areas to be assessed were:

   1.   Continuous Monitoring
   2.   Configuration Management
   3.   Identity and Access Management
   4.   Incident Response and Reporting
                                            4
   5. Risk Management
   6. Security Training
   7. Plan of Action & Milestones
   8. Remote Access Management
   9. Contingency Planning
   10. Contractor Systems

The FY 2012 FISMA evaluation concluded that NEA has established a security program
for protecting its IT infrastructure and is compliant with FISMA legislation. We
determined that all of the specific program areas met the level of performance as
indicated in DHS’s FY 2012 FISMA checklist. This report presents our completed DHS
checklist for NEA. (Attachment A)

Although, we did not identify any material weaknesses in the program areas, we did
identify areas for improvement in the following programs:

   1. Identity and Access Management
   2. Risk Management

Identity and Access Management
Federal Personal Identity Verification Program

NEA has established and is maintaining a program for identity and access management.
However, NEA has not developed a policy as to how the agency will implement the use
of the Federal PIV smartcard credentials as the common means of authentication for
access to the agency's networks and information systems.

Homeland Security Presidential Directive 12 (HSPD-12), Policy for a Common
Identification Standard for Federal Employees and Contractors, was issued on
August 12, 2004. HSPD-12 requires a mandatory, government-wide standard for secure
and reliable forms of -identification, issued by the federal government to its employees
and employees of federal contractors, for access to federally-controlled facilities and
networks. Based upon this directive, the NIST developed Federal Information Processing
Standards Publication 201, which includes minimum requirements for a Federal PIV
system. Subsequently, additional implementation guidance was issued by DHS, OMB
and NIST.

OMB Memorandum M-11-11, Continued Implementation of Homeland Security President
Directive 12 - Policy for a Common Identification Standard for Federal Employees and
Contractors, dated February 3, 2011, further discusses the implementation of HSPD-12. It
included a memorandum from Homeland Security, which directed each agency to develop
and issue an implementation policy by March 31, 2011, through which the agency will
require the use of the PIV credentials as the common means of authentication for access to
that agency’s facilities, networks, and information systems. To be effective in achieving the


                                             5
goals of HSPD-12, and realizing the full benefits of PIV credentials, the memorandum
included certain requirements for the agency’s implementation policy.

NEA is compliant with the requirement for the use of PIV smartcard credentials for
physical access and during FY 2012 NEA issued new computer systems to employees
which can enable the use of the PIV smartcard. However, NEA has not implemented the
use of the PIV smartcard credentials for access to its networks and information systems.

Recommendation

NEA should develop an implementation policy to require the use of PIV smartcard
credentials for logical access to its networks as directed by HSPD-12. In addition, NEA
should implement the use of the PIV smartcard credentials for access to its network and
information systems.

Risk Management
Encryption of Data on Mobile Computers/Devices

Overall, NEA has established and is maintaining a risk management program that is
consistent with FISMA requirements, OMB policies and applicable NIST guidelines.
However, during our evaluation, we identified an area for improvement to its information
security program.

During FY 2011, we evaluated NEA's control over computer-related equipment. As a
result of the review, the Information Systems Security Officer (ISSO) submitted seven
recommendations to the CIO which were included in the OIG's final report entitled,
Review of NEA’s Control Over Computer-Related Equipment, Report No. R-11-02. We
reviewed the corrective actions for the ISSO's recommendations and determined that six
of the seven recommendations were implemented. However, we do not believe that the
corrective action implemented for Recommendation No. 1, regarding encryption of
information on all mobile computers/devices, meets the intent of OMB guidance. OMB
Memorandum M-06-16, Protection of Sensitive Agency Information, dated June 23,
2006, states:

       All departments and agencies "encrypt all data on mobile computers/devices which
       carry agency data unless the data is determined to be non-sensitive, in writing, by your
       Deputy Secretary or an individual he/she may designate in writing."

NEA implemented the Microsoft Windows 7 Encryption File System method. However,
this method does not encrypt all data automatically. Only files and folders, selected by
the user can be encrypted. Encryption must be activated or de-activated by the user.
Therefore, the agency must rely on users to encrypt agency data, which could also
include personally identifiable information (PII). Agency data and PII continue to be at
risk if users simply choose not to encrypt data. Lastly, there are no policies and
procedures in place that require employees to encrypt data on mobile computers/devices.

                                               6
Recommendation

NEA should implement an automatic encryption method which includes all data on all
mobile computers/devices that carry agency information to ensure PII and sensitive
information is not compromised. NEA should also develop and implement policies and
procedures requiring the encryption of all data on mobile computers/devices.


                            EXIT CONFERENCE
We provided a draft copy of this report to NEA ITM officials on December 5, 2012. The
officials concurred with our findings and recommendations and agreed to initiate
corrective actions.


                          RECOMMENDATIONS
We recommend that the National Endowment for the Arts, Office of Information and
Technology Management:

1.     Develop an implementation policy to require the use of PIV smartcard credentials
       for logical access to its networks as directed by HSPD-12.

2.     Implement the use of the PIV smartcard credentials for access to its network and
       information systems.

3.     Implement an automatic encryption method which includes all data on all mobile
       computers/devices that carry agency information to ensure PII and sensitive
       information is not compromised.

4.     Develop and implement policies and procedures requiring the encryption of all
       data on mobile computers/devices.




                                           7
